                            SOCIAL SECURITY
                                   December 28, 2009



The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

In a July 16, 2009 letter, you asked that we (1) conduct an audit of the Social Security
Administration’s (SSA) July 2009 training conference in Phoenix, Arizona;
(2) determine the number of training conferences conducted by the Agency over the
past 8 years; and (3) provide information pertaining to all Office of the Inspector General
investigations, audits, and evaluations conducted on conference events at SSA over the
past 5 fiscal years.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. The enclosed
report highlights various facts pertaining to the issues raised in your letter. To ensure
SSA is aware of the information provided to your office, we are forwarding a copy of this
report to the Agency.

If you have any questions concerning this matter, please call me, or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                 Sincerely,




                                                 Patrick P. O’Carroll, Jr.
                                                 Inspector General

Enclosure

cc:
Michael J. Astrue



            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

   San Francisco Regional
    Management Training
          Forum

        A-05-09-29174




        December 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                             Executive Summary
OBJECTIVE
Our objective was to respond to Senator Grassley’s July 16, 2009 letter requesting we
(1) conduct an audit of the Social Security Administration’s (SSA) July 2009 training
conference in Phoenix, Arizona; (2) determine the number of training conferences
conducted by the Agency over the past 8 years; and (3) provide information pertaining
to all Office of the Inspector General investigations, audits, and evaluations conducted
on conference events at SSA over the past 5 fiscal years (FY).

BACKGROUND
From July 7 to 9, 2009, the San Francisco Region conducted a Regional Management
Training Forum (Training Forum) at the Arizona Biltmore Hotel in Phoenix, Arizona.
Approximately 670 SSA management officials from across the Region and
Headquarters in Baltimore attended. The agenda included presentations from SSA and
non-SSA speakers.

SSA’s Administrative Instructions Manual System (AIMS) requires that Agency training
be designed to ensure the optimum use of human resources in achieving organizational
goals and approved employee development plans by the most cost-effective and
professional means available. Moreover, this training must conform to appropriate laws
and regulations, as well as the terms of negotiated agreements.

RESULTS OF REVIEW
In general, we found most of the approximately $675,000 in costs incurred at the
Training Forum was properly supported and in compliance with Agency guidance and
applicable laws and regulations (see cost breakout in the table below). However, we
question whether approximately $13,400 spent on reception refreshments was
allowable, since the reception did not meet the established criteria for such
refreshments. We also found the Region accepted gifts and donations from outside
sources for the conference, which may be inconsistent with ethical guidelines and other
policies. In addition, we found that regional staff could have maintained better contract
procurement documentation related to the trainers.




San Francisco Regional Management Training Forum (A-05-09-29174)                            i
                     Costs Related to July 2009 Training Forum
                  Expense Description                                   Amount
 Employee Travel                                                                  $503,774
 Meals and Refreshments at the Hotel                                                67,176
 Audiovisual Services                                                               67,816
 Contracted Instructors                                                             24,250
 Other Costs                                                                        12,065
 Total Costs                                                                      $675,081

The instructional training at the Training Forum was consistent with the Region’s 5-Year
Plan. We also found the San Francisco Region was using a variety of training delivery
methods to train managers and staff, including conferences, video technology, and
classroom training. However, we found the Agency’s conference practices were
inconsistent with its published policies calling for centralized approval and reporting on
conferences. In August 2009, SSA management addressed this oversight issue by
establishing new, interim centralized conference guidelines. Under these new
guidelines, Agency components were required to provide their proposed conference
plans for FYs 2010 and 2011 by November 30, 2009.

SSA reported it had held approximately 180 conferences since January 1, 2001.
Agency components provided details on approximately 34,000 attendees and related
costs of about $26 million. For example, the 10 regions reported 35 conferences during
this period. Of these regional conferences, 11 were held in the San Francisco Region.

Finally, our office has completed three audits and one investigation related to training
conferences at SSA in the past 5 years. The audits addressed the training of field office
staff, administrative law judges (ALJ), and systems staff. The investigation was related
to a Diversity Conference held in Atlanta in 2006. We found Agency oversight problems
in our audit of the ALJ training conferences as well as the investigation of the Atlanta
Diversity Conference.

CONCLUSIONS
While we found most of the costs incurred at the Training Forum were properly
supported and in compliance with Agency guidance and applicable laws and
regulations, we identified issues related to (1) questionable reception costs,
(2) acceptance of gifts and donations from outside sources, and (3) incomplete
documentation related to contract procurement. Given the findings of this report, the
number of conferences held by SSA, and the issues identified in our audits and
investigation, it is critical that SSA closely monitor the planning and procurement related
to future conferences. The steps being taken by the Commissioner to centralize
monitoring of Agency conferences should provide increased assurance that such
conferences comply with applicable laws and regulations.




San Francisco Regional Management Training Forum (A-05-09-29174)                          ii
                                                                      Table of Contents
                                                                                                                Page

BACKGROUND ...................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

Phoenix Training Forum .......................................................................................... 3

    •    Conference Costs ......................................................................................... 3
    •    Conference Procurement ........................................................................... 11
    •    Conference Planning .................................................................................. 12
    •    Headquarters’ Oversight and Guidance ..................................................... 16

Conferences in the Past 8 Years........................................................................... 17

    •    Regional Conferences ................................................................................ 18

OIG Reviews of Prior Conferences ....................................................................... 19

    •    Audits of Training and Conferences ........................................................... 19
    •    Investigation of Training and Conferences ................................................. 22

CONCLUSIONS .................................................................................................... 24

APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Conference Agenda and Workshops
APPENDIX C – Scope and Methodology
APPENDIX D – Detailed Regional Management Training Forum Expenses
APPENDIX E – Conference Exhibitors
APPENDIX F – Conference Donations
APPENDIX G – Procurement Methods
APPENDIX H – Training Matrix
APPENDIX I – San Francisco Region Conferences




San Francisco Regional Management Training Forum (A-05-09-29174)
                                                                          Background
OBJECTIVE
Our objective was to respond to Senator Grassley’s July 16, 2009 letter requesting we
(1) conduct an audit of the Social Security Administration’s (SSA) July 2009 training
conference in Phoenix, Arizona; (2) determine the number of training conferences
conducted by the Agency over the past 8 years; and (3) provide information pertaining
to all Office of the Inspector General (OIG) investigations, audits, and evaluations
conducted on conference events at SSA over the past 5 Fiscal Years (FY).

BACKGROUND
From July 7 to 9, 2009, the San Francisco Region 1 conducted a Regional Management
Training Forum (Training Forum) at the Arizona Biltmore Hotel in Phoenix, Arizona.
Approximately 670 SSA management officials from across the Region and
Headquarters in Baltimore attended. The agenda included presentations from SSA and
non-SSA speakers (see Appendix B).

During the conference, a television news crew was also present. A July 9, 2009, news
broadcast questioned the cost, location, content, and attendance at the Training Forum.
In addition, the broadcast questioned whether American Recovery and Reinvestment
Act of 2009 (ARRA)2 funds were used to pay for the Training Forum.

SSA’s Administrative Instructions Manual System (AIMS) 3 requires that Agency training
be designed to ensure the optimum use of human resources in achieving organizational
goals and approved employee development plans by the most cost-effective and
professional means available. Moreover, this training must conform to appropriate laws,
regulations, and the terms of negotiated agreements.




1
 The San Francisco Region covers the States of Arizona, California, Hawaii, and Nevada, as well as the
Pacific Islands of American Samoa, Guam, and Saipan. The Region has 161 field offices and 61 contact
stations under the direction of 8 area directors. It also supports 6 teleservice centers (TSC), 3 Social
Security Card Centers, and 19 disability determination services (DDS) facilities.
2
 ARRA provided SSA with funding to carry out the following three projects: (1) $500 million to address
disability and retirement workloads, including information technology (IT) acquisition and research in
support of such activities; (2) $500 million to replace the National Computer Center and associated IT
costs; and (3) $90 million to administer the Economic Recovery Payments.
3
 AIMS is the official medium for issuing SSA’s policies, standards, and instructions on administrative
subjects. AIMS provides a single integrated, comprehensive approach to issuing policies and procedures
covering all administrative subjects, other than personnel matters.


San Francisco Regional Management Training Forum (A-05-09-29174)                                         1
SCOPE AND METHODOLOGY
In this review, we are not opining on the appropriateness of (1) the use of conferences
as a training method or (2) holding a conference at the Phoenix, Arizona, location. To
meet our objectives, we reviewed the planning, procurement, and final expenses related
to the Training Forum to ensure these activities were in compliance with Agency
guidance and applicable laws and regulations. We also spoke with the San Francisco
Region’s management and staff for an understanding of the planning and procurement
activities related to the Training Forum and other SSA management and staff, as
appropriate, to understand training and procurement policies at SSA. To answer the
question concerning past conferences, we requested information on conferences since
January 2001 from all SSA components. Finally, to address our prior work, we
reviewed and summarized previous audits and investigations related to conferences
from the past 5 years. See Appendix C for our full scope and methodology.




San Francisco Regional Management Training Forum (A-05-09-29174)                     2
                                                          Results of Review
In general, we found the majority of the approximately $675,000 in costs incurred at the
Training Forum was properly supported and in compliance with Agency guidance and
applicable laws and regulations. However, we found approximately $13,400 in
questionable costs related to refreshments at an employee reception the first night of
the Training Forum. We do not believe this reception met the established criteria for
such refreshments. We also found the Region may have inappropriately accepted gifts
and donations for the conference. In addition, we found that regional staff could have
maintained better contract procurement documentation related to the trainers. And
while the training conference was consistent with the Region’s 5-year training plan, we
found the Agency’s conference practices were inconsistent with its published policies
calling for centralized approval and reporting on conferences. SSA management
recently addressed this oversight issue by establishing new conference guidance. In
terms of prior conferences, we determined SSA held approximately 180 conferences
since January 1, 2001 for approximately 34,000 attendees at a cost to the Agency of
about $26 million. Finally, our office has conducted three audits and one investigation
related to training conferences at SSA in the past 5 years. One audit of administrative
law judge (ALJ) conferences and the investigation of a Diversity Conference identified
Agency oversight issues.

PHOENIX TRAINING FORUM
As part of our review of the Training Forum, we reviewed the (1) costs incurred by the
Region, (2) procurement process, (3) Region’s training planning process, and (4) overall
Agency guidance on conferences.

CONFERENCE COSTS

The San Francisco Region spent approximately $675,000 on its Training Forum in
Phoenix, Arizona (see Table 1 for a summary of costs and Appendix D for the detailed
costs). 4 The average cost per participant was about $1,000, and approximately
75 percent of the overall costs was related to travel expenses. As part of our review, we
obtained supporting documents related to travel, contracts, and micro-purchases. We
reviewed the supporting documentation for compliance with Agency guidance and
applicable laws and regulations. In general, we determined that the costs




4
 This figure does not include salary costs associated with the time SSA employees spent to attend the
Training Forum.


San Francisco Regional Management Training Forum (A-05-09-29174)                                        3
appeared to be reasonable and properly supported. 5 In addition, we found that the
source of funding for the conference was the Agency’s regular appropriation.

                     Table 1: Costs Related to July 2009 Training Forum
                     Expense Description                                          Amount
    Employee Travel                                                                          $503,774
    Meals and Refreshments at the Hotel                                                        67,176
    Audiovisual Services                                                                       67,816
    Contracted Trainers/Performers                                                             24,250
    Conference Supplies and Services                                                           12,065
    Total Costs                                                                              $675,081

Employee Attendance and Travel

The San Francisco Region reported 674 conference attendees: 638 were regional
employees and 36 were non-regional employees and other guests. Regional attendees
included managers from field offices, teleservice centers, the Program Service Center
(PSC), and the San Francisco Regional Office (see Figure 1). Non-regional attendees
included SSA Headquarters personnel from various components,6 State DDS
managers, and speakers and trainers from other governmental and private sector
organizations, respectively.




5
    We discuss this process later in the report under “Conference Procurement.”
6
  See Appendix B for more on the attendees and Appendix E for the list of Agency exhibitors at the
training conference.


San Francisco Regional Management Training Forum (A-05-09-29174)                                     4
                           Figure 1: Regional Management Employees
                              at the Training Forum (638 Employees)



                                           TSC
                                           6%          Other
                                                        2%
                               PSC
                               7%




                   Regional Office
                        20%



                                                                      Field Office
                                                                          65%




          Note: Other includes employees from the Office of Disability Adjudication and Review
          (ODAR), OIG, Office of Quality Performance, and Social Security Card Centers.


Forum attendees submitted travel costs of approximately $504,000 (see Figure 2 for a
breakout of these costs). 7 We estimated that about 95 percent of the attendees claimed
travel expenses, and the remaining 5 percent lived in the Phoenix commuting area and
did not claim travel expenses. Submitted travel costs ranged from approximately
$324 to $3,200. 8 Some of the higher travel cost submissions related to managers
traveling from more distant locations, such as Guam, as well as regional employees
attending additional days as part of conference preparation and followup. 9




7
  Employees undergoing training may be authorized payment of all or part of the necessary costs of
training, which includes transportation and per diem. 5 U.S.C. § 4109(a)(2)(A).
8
    This $3,200 cost related to an attendee traveling from Saipan in the Northern Mariana Islands.
9
 We reviewed the travel vouchers submitted by 45 randomly selected attendees to ensure the
reimbursed expenses were appropriate.


San Francisco Regional Management Training Forum (A-05-09-29174)                                     5
                     Figure 2: Distribution of Training Forum Travel Costs
                               (From a Sample of 45 Attendees)

                                         Meals &
                                                                        Transportation
                                       Incidentals
                                                                             56%
                                           18%




                               Hotel
                               26%




          Note: Of the 45 attendees, 42 submitted travel expenses, and 3 resided in the Phoenix
          area and therefore did not claim travel expenses.

Hotel Support Services

The Training Forum was held at the Arizona Biltmore Hotel, which was selected as part
of a competitive bidding process. 10 The Region contracted with a private firm
representing the Hotel to supply the necessary space as well as meals and
refreshments. The bid related to the Hotel stated it had 738 guest accommodations and
restaurants on-site as well as proximity to off-site restaurants, shopping, and airport
shuttle transportation. 11

The Hotel charged $85.51 per room per night, 12 which was below the Government per
diem of $96 per room per night. 13 Most of the attendees stayed at the hotel for 2 nights,
using the morning of the first day and afternoon of the third day to travel to and from the
conference. The hotel charged an estimated $67,200 for the meals and refreshments,
which included a reception, lunch, and light refreshments for morning and afternoon
breaks. The conference rooms were provided free of charge.



10
     We discuss this process later in the report under “Conference Procurement.”
11
  The Biltmore Hotel’s Website also mentioned other amenities, including eight swimming pools, seven
tennis courts, and a full-service resort spa, salon, and fitness center.

12
     With $10.49 in taxes, the attendees paid $96 per night.

13
   The per diem for the period May 1 through August 31, 2009 was $96 for lodging (not including taxes)
and $59 for meals and incidental expenses. This was the lowest per diem rate in Phoenix in FY 2009.
The highest was $160 for lodging and $59 for meals and incidental expenses from January 1, 2009
through April 30, 2009.


San Francisco Regional Management Training Forum (A-05-09-29174)                                         6
We question the hotel costs related to the reception for attendees on the first evening of
the conference. The Region paid approximately $13,400 for hot and cold
hors d'oeuvres at the reception. In general, the Agency’s policy regarding meals and
refreshments at federally sponsored training conferences requires that it can only be
provided if it is “incidental” to the training being provided—meaning it occurs during the
period of training but is not the main event. AIMS states three conditions that must be
met for the Government to furnish meals and refreshments at a formal conference.

1. The meals and refreshments are incidental to the conference.

2. Attendance at the meals and when refreshments are provided is important for the
   host agency to ensure full participation in essential discussions, lectures, or
   speeches concerning the purpose of the conference.

3. The meals and refreshments are part of a formal conference that includes not just
   the meals and refreshments and discussions, speeches, or other business that may
   take place when the meals and refreshments are served, but also includes
   substantial functions (that is, presentations, panel discussions) occurring separately
   when the food is served. 14

For instance, the conference included a luncheon that cost the Agency approximately
$13,500. The luncheon met the above criteria because it occurred in the middle of the
second day of the conference and included a speaker on workplace relationships. In
addition, most of the luncheon costs were already covered as part of the reduction in
the attendees’ per diem. 15

We do not believe the reception met the above criteria since (1) it was held at 6 p.m.,
after the formal training was finished; (2) it did not include “…essential discussions,
lectures or speeches…,” (the Agency’s conference material defined the reception as a
“kickoff social activity” and “informal reception” with “festivities” to include “musical
entertainment and dancing”); 16 and (3) its agenda noted it was “optional,” which
indicates full participation was neither expected nor required. While the reception was




14
  SSA, AIMS, Financial Management Manual, Chapter 3, Section 03.11.03.D.2—Use of the Agency’s
Appropriations for Special Purposes. This section also cites the Government Accountability Office’s
(GAO) Comptroller General Decision B-300826—National Institutes of Health - Food at Government-
Sponsored Conferences, March 3, 2005.
15
  We reviewed a sample of travel vouchers and found that most of the travelers reduced their per diem
on the second day to account for the luncheon. If the per diem was properly reduced, an individual’s per
diem would be reduced from $59 per day to $43 per day. The price per person was approximately $20,
so about 80 percent of the luncheon’s cost was offset by the reduced per diem.
16
  This document also stated, “Snack on light refreshments including fruit, cheese, crackers, and assorted
hors d’oeuvres. Cash bars will be open.”


San Francisco Regional Management Training Forum (A-05-09-29174)                                           7
defined as a more formal event in the contract justification, 17 we do not believe the
actual reception, as defined by the conference materials, represents an allowable
cost. 18 In addition, unlike the luncheon, individuals were not required to reduce their per
diem if they attended the event, so the Agency’s reception costs were not offset by such
cost reductions.

Audiovisual Services

The Region procured an audiovisual contractor to assist with the lighting, sound, filming,
and presentations during the 3-day conference. The cost for these services was
approximately $67,800. As part of our audit, we reviewed eight DVD recordings of
various presentations. Of the 38 sessions at the conference, 11 were recorded under
this contract. 19 In our review of the recordings, we found that none of the workshop
sessions was recorded as part of the contract. We believe the material presented in the
workshops may have benefited managers who were unable to attend the conference.
Regional management explained that the contractor had one stationary camera and
recorded only those portions of the conference held in the main conference room. In
addition, regional staff noted that the presentation materials from both the main
conference rooms and workshops would be shared after the conference, as
appropriate, to benefit those who were unable to attend. 20

Speakers and Trainers

The Training Forum had approximately 30 speakers and trainers. Of these, four were
paid presenters, and the remainder comprised SSA or other government employees.21
The cost of the paid presenters was $24,250, which included three trainers and a dance
company (see Table G-1 in Appendix G). The AXIS Dance Company was hired to

17
   The contract stated, “Refreshments are needed at the reception because that is the registration portion
of the conference. The registration portion is mandatory for all attendees and is essential to the training
program. The activities are formal in nature. The registration reception allows participants the
opportunity to meet and interact with executives and fellow managers.” However, the agenda cited the
event as a "reception" only, and the registration for the conference started at 9 a.m. the first day. Hence,
one did not need to attend the reception to register for the conference.
18
 We had a similar finding in an earlier OIG audit of an SSA-funded conference for ODAR employees,
which we discuss later in this report. SSA OIG, Association of Administrative Law Judges' Training
Conference Costs (A-12-08-28037), April 2008.
19
     See Appendix B for the conference agenda and a list of speakers and trainers.
20
  For instance, on September 17, 2009, the Region issued a memorandum to regional managers with
copies of the conference presentations by the Acting Deputy Commissioner and Deputy Commissioner
for Human Resources. SSA, Regional Memorandum No. G-09-012, Management Training Forum—
Executive Presentations—INFORMATION, September 17, 2009.

21
   While these trainers and presenters did not charge a fee, in most cases, the Agency paid the travel
costs related to their attendance. Some presenters were San Francisco managers already scheduled to
attend the Training Forum.



San Francisco Regional Management Training Forum (A-05-09-29174)                                           8
perform at the conference. AXIS includes performers with and without disabilities.
Regional management noted that the inclusion of this program was consistent with one
of the themes of the Region’s conference—the employment of individuals with
disabilities. 22

Conference Donations

A number of non-governmental organizations donated items to the conference (see
Appendix F) that were later used as free employee door prizes. We believe the
Agency’s acceptance of such donations was inappropriate for a number of reasons.
First, we believe the acceptance of outside donations may be mistaken for SSA’s
endorsement of a product. For example, Blue Cross/Blue Shield donated small items,
such as pens, dental floss, and key chains with flashlights. Since Blue Cross/Blue
Shield is one of many companies that provide health insurance to SSA employees, the
acceptance and distribution of such items to SSA employees may be interpreted as
SSA’s endorsement of this company’s product.

Second, the acceptance of these donations by any SSA employee may violate Federal
ethics guidelines, which prohibit an employee from soliciting or accepting any gift from a
prohibited source or given because of the employee’s official position. 23 Also, the
acceptance of such gifts may constitute an improper augmentation of SSA’s
appropriation. 24

Under certain circumstances, an individual can accept gifts that have an aggregate
market value of $20 or less per source per occasion, provided they do not to exceed
$50 in a calendar year. 25 The Region did not place a value on most of these items, so
we do not know which gifts exceeded $20. However, some sources contributed a high

22
  Regional management explained that the AXIS Dance Company presentation at the Training Forum
was not an interactive program. The audience was seated and watching the performance. The news
media showed the attendees at the conference during a 5-minute stretch break, which we were told was
not a part of the AXIS Dance Company presentation.
23
   See 5 C.F.R., § 2635.202, which contains standards that prohibit an employee from soliciting or
accepting any gift from a prohibited source or given because of the employee's official position unless the
item is excluded from the definition of a gift or falls within one of the exceptions set forth in this subpart.
Also, according to GAO guidance, “. . . [a]s a general proposition, unless authorized by statute, private
contributions to the salary or expenses of a federal employee are improper. First, they may in some
circumstances violate 18 U.S.C. § 209, which prohibits the supplementation of a government employee’s
salary from private sources… To the extent the private contribution replaces the employee’s government
salary, it is a direct augmentation of the employing agency’s appropriations. To the extent the
contribution supplements the government salary, it is an augmentation in an indirect sense, the theory
being that when Congress appropriates money for an activity, all expenses of that activity must be borne
by that appropriation unless Congress specifically provides otherwise.” GAO, Principles of Federal
Appropriations Law (Red Book), Third Edition, Volume II, GAO-06-382SP, February 2006, page 6-231.
24
     Id.
25
     5 C.F.R. § 2635.204(a).



San Francisco Regional Management Training Forum (A-05-09-29174)                                              9
volume of items that we expect exceeded this amount. For example, the Oakland
Athletics donated clothing, dolls, coolers, blankets, autographed baseballs, and other
items. The Federal regulation governing proper disposition of prohibited gifts to
employees requires, in part, that (a) an employee who has received a gift that cannot be
accepted under the regulations. 26

      1. Return any tangible item to the donor or pay the donor its market value. An
         employee who cannot ascertain the actual market value of an item may estimate
         its market value by reference to the retail cost of similar items of like quality. 27

      2. When it is not practical to return a tangible item because it is perishable, the item
         may, at the discretion of the employee's supervisor or an agency ethics official,
         be given to an appropriate charity, shared within the recipient's office, or
         destroyed. 28

GAO guidance 29 indicates that “…acceptance of a gift or money or other property by an
agency lacking statutory authority to do so is an improper augmentation.” As noted
previously, the transfer of certain gifts funded by outside sources to employees could be
construed as a supplement to the employees’ salaries, which may also be considered
an improper augmentation. Accordingly, the Region’s acceptance of at least certain
donations of items and the conveyance of certain such items to employees appears to
be inconsistent with the Agency’s appropriation authority. 30




26
  Unless the gift is accepted by an agency acting under specific statutory authority. 5 C.F.R.
§ 2635.204(I).
27
     5 C.F.R. § 2635.205(a)(1).
28
     5 C.F.R. § 2635.205(a)(2).
29
  GAO Principles of Federal Appropriations Law (Red Book), Third Edition, Volume II, GAO-06-382SP,
February 2006, page 6-223. GAO defines “gifts” as gratuitous conveyances or transfers of ownership in
property without any consideration, citing to several Comptroller General opinions.
30
  SSA is required to have proper statutory authority to accept gifts and donations from an outside
organization to prevent the Agency from exceeding the amount that Congress has appropriated to it. “The
general rule is that without statutory authority, an individual government agency may not accept gifts of
goods or services for its own use (i.e., for retention by the agency or credit to its own appropriations).”
GAO, Comptroller General opinion, Gifts of Goods and Services to the Government, B-289903,
March 4, 2002.



San Francisco Regional Management Training Forum (A-05-09-29174)                                        10
The Region also accepted a donation of the services of a disc jockey from the
San Francisco Region Management Association (SFRMA) 31 at the opening night
reception, a service that regional managers estimated would have cost about $1,200.
The receipt of such services appears to violate the voluntary services prohibition of the
Antideficiency Act. 32 This law prohibits an officer or employee of the U.S. Government
from accepting voluntary services for the Government or employing personal services
exceeding those authorized by law except for emergencies involving the safety of
human life or the protection of property. 33 While GAO has found that voluntary services
may be permitted where the services were agreed to in advance to be gratuitous and
properly documented as such, 34 in this case, SSA did not provide any evidence of a
documented agreement for gratuitous services.

After-Hours Events

During the conference, attendees had the opportunity to attend local events in the
evenings at their own cost. For example, the agenda noted that a “Casino Arizona
Night” would be held the second night of the Forum at a local casino. Attendance was
voluntary, and the casino provided free transportation. The agenda also noted that a
musical performance was taking place the same evening at the casino, so individuals
may have been interested in a number of events at the casino.

CONFERENCE PROCUREMENT

In preparing for the Training Forum, the Region procured approximately $171,000 in
hotel services, audiovisual support, trainers, and other supplies. We found the Region
was using the lowest bidder that met all the technical requirements for both hotel and
audiovisual services. In addition, while our review of this contracting process found that
the staff maintained proper contract documentation for about 86 percent of this
procurement, documentary support was inadequate for the remaining 14 percent
relating to the trainers. We discuss the procurement process and specifics related to

31
   According to its bylaws, SFRMA is a nonprofit professional association of SSA managers established to
ensure “…constructive cooperation with the commissioner of Social Security and all responsible officials
in the furtherance of social security programs, encouraging the establishment of policies that best serve
the public interest in the accomplishment of the mission of our agency, fostering professional growth of
management personnel, assuring meaningful and realistic consultation between agency heads and
representatives of management organizations.”
32
     As contained in 31 U.S.C. § 1342.
33
  The voluntary services rule, as set forth in 31 U.S.C. § 1342, is intended to prevent agencies from
forcing the Congress to appropriate funds to pay volunteers who later submit claims for payment.
23 Comp. Gen. 272, 274 (1943). Comptroller General opinions have found that the Federal Government
could accept free services from the private section as long as they were agreed in advance to be
gratuitous and properly documented. Comp. Gen. B-182087-O.M., Nov. 26, 1975; and Comp Gen.
B-125406, Nov. 4, 1955. Essentially, the documentation of such gratuitous services would alleviate the
prospect of future successful claims against the Government.
34
     Id.


San Francisco Regional Management Training Forum (A-05-09-29174)                                      11
the Phoenix training conference in Appendix G. Table 2 shows the breakout of
procurement methods used by the Region and related amounts.

             Table 2: Training Forum Procurement Methods and Amounts
                                                                 Conference              Amount of
     Procurement                                             Procurement Under           Conference
        Method                      Thresholds                   this Method               Costs
 Micro-Purchase/             $2,500 for services and        Other costs, such as             $12,065
 Credit Card                 $3,000 for supplies/goods      supplies
                             Over $2,500/$3,000 but         Trainers                           24,250
 Open Market                 under $25,000
 Acquisitions                Exceeding $25,000 but          --Hotel Services                  134,992
                             not exceeding $100,000         --Audiovisual Support
 Total                                                                                       $171,307

CONFERENCE PLANNING

The training provided at the Training Forum was consistent with the Region’s 5-Year
Plan. We also found the San Francisco Region was using a variety of training delivery
methods to train managers and staff, including conferences, video technology, and
classroom training.

San Francisco Region 5-Year Plan

We reviewed the San Francisco Region’s 5-Year Plan and found it supported the
training content provided at the Training Forum. In the 5-Year Plan, the Region
developed an initiative to address employees’ and managers’ critical training needs. 35
The Plan defined critical training needs, such as automation skills, public service skills,
mentor development, understanding diversity, and “phone” skills.

Regional officials said the Training Forum was designed to provide management/
leadership training for the Region’s managers, half of whom had been in their
management positions for less than 2 years. The 5-Year Plan was used to develop the
curriculum for the Training Forum, and workshops were identified as critical for the
development of new and future leaders. The training objectives for the Forum included
the promotion of professional growth and development training. To fund the FY 2009
Training Forum, the Region merged the budgets related to smaller area conferences
usually held throughout the Region.

We reviewed the training provided at the Training Forum and found that all the courses
fell within the critical training needs identified by the Region in its 5-Year Plan. Table 3
provides a crosswalk of the critical skills and training sessions.


35
  An Office of Personnel Management memorandum, Guidelines for Managerial Development, dated
September 12, 2006, provides that agencies should ensure a clear linkage to organizational strategy,
goals, and values in planning for leadership development programs. 5 C.F.R. § 412.103.


San Francisco Regional Management Training Forum (A-05-09-29174)                                       12
           Table 3: Critical Skills as Defined in the Region’s 5-Year Plan and the
                    Training Sessions Provided at the Training Forum
       Critical Skills                             Breakout Session
      Automation          eServices in SSA
      Skills              Health Information Technology Communication Strategy

      Public Service      RelationShifts
      Skills              Policy Perspectives
                          Reasonable Accommodation: The Big Picture
                          Improving Organizational Performance Through Employee Engagement
                          Interest Based Bargaining

      Mentor              A Leadership Role in Strategic Management Planning
      Development         Emotional Intelligence: Leading Organizations and Transitional Change
                          Mentoring the Generations
                          Removing the Barriers
                          Leading at a Higher Level: SES Career Development

      Understanding “Why They Make You Crazy” – A Look at Behavioral Tendencies and
      Diversity     Workplace Relationships
                    AXIS Dance Company
                    Multigenerational Communication: What You Need to Know to
                    Effectively Manage Four Generations at Work
                    Managing Diverse People: A Real Conversation

      Phone Skills        We did not identify any training associated with this topic.
     Note: See Appendix B for the list of training sessions at the conference.

Training Delivery Methods

Federal agencies are allowed to use a variety of methods to train employees, including
classroom, on-the-job, technology-based, satellite, self-development activities,
coaching, mentoring, career development counseling, details, rotational assignments,
cross-training, and developmental activities at retreats and conferences. 36

Region officials noted that in-person conferences are just one of many ways in which
managers and staff are trained in the Region. Other delivery methods include
traditional instructor classroom training, interactive video teletraining (IVT), 37 and
Internet-based learning (see Appendix H for a list of training delivery methods used by
the San Francisco Region). For example, IVT is used to provide the majority of entry-
level training for field operations. IVT is also used to provide ongoing training for staff in
the immediate claims-taking units.
36
     5 C.F.R. Part 410 § 410.204—Options for Developing Employees.
37
   The IVT delivery method consists of interactive distance learning where the participants are at a
training facility separate from the course instructor. The IVT is broadcast live from an SSA studio. IVT
uses a satellite transmission system, enabling the student to view and respond to the program. Programs
are received on a television monitor. The use of the IVT does not interfere with SSA’s computer network.


San Francisco Regional Management Training Forum (A-05-09-29174)                                     13
In the case of the Training Forum, regional management noted that the conference was
the preferred method of providing important training to managers since

     •    the Agency was facing unprecedented workloads;
     •    almost half the managers were in their positions for fewer than 2 years;
     •    the Agency had undertaken a number of new initiatives to address public service
          challenges; and
     •    many front-line employees needed support and leadership.

Regional officials also noted that the in-person training provided a single message to all
managers and provided them with an opportunity to meet the Commissioner and
Deputy Commissioners. In addition, regional officials deemed traditional instructor
classroom training to be the most effective method for the workshops. Finally, regional
officials stated the conference provided “…the first opportunity in eight years for
geographically deployed managers to meet coworkers in person to develop professional
alliances and to collaborate.”

Other Conferences

The San Francisco Region uses in-person conferences to train staff and managers. 38
For example, the Region developed the Front-line Conference to train journey-level staff
throughout the Region with 3 or more years of work experience in the field office, TSC,
or PSC. The conferences are held four to six times a year at different locations.
Regional officials said the Region’s goal is to train 20 percent of the journey-level staff
within 1 year. However, the Region does not anticipate reaching its goal of
100 percent of the journey-level staff being trained within 5 years because of the
different transitions in personnel—separation, retirement, and promotions.

For example, the Front Line Training Conference was held for 1 day on August 13, 2009
in Riverside, California, for about 100 attendees. The Regional Commissioner and Area
Director spoke at the conference, and training sessions were held on communication
and customer service skills. 39

Conferences are sometimes used in conjunction with other training delivery methods.
For example, SSA Headquarters has developed a Transition to Leadership Curriculum
for new supervisors, managers, and management staff. The Curriculum takes
advantage of a blended delivery approach including national IVT programs,
supplemental computer-based lessons, a series of successive in-person classroom
training courses for newly appointed supervisors, and in-person symposia for more
experienced leaders. The entire curriculum is also supported by the Video on Demand
Leadership Library. Hence, video technology is combined with computer-based
distance learning and classroom sessions to deliver training to this audience.

38
     We provide a list of conferences held over the last 8 years later in this report.
39
 These 1-day conferences are not included in the later listing of SSA conferences since they were not
multi-day.


San Francisco Regional Management Training Forum (A-05-09-29174)                                        14
IVT Conferences

We spoke to regional officials about the use of IVT equipment to relay important training
material to managers throughout the Region. Regional officials said that one difficulty is
the lack of an IVT broadcast facility in the San Francisco Region. 40 In addition, the IVT
equipment was being used over the summer to support the new hires. Moreover, the
IVT equipment would not be able to meet some of the goals of an in-person conference,
including the chance for managers to meet with senior management and peers from
around the Region.

We also spoke to systems staff at SSA Headquarters and found the San Francisco
Region had 235 IVT downlink sites (see Figure 3). Theoretically, it may have been
possible for the Region to conduct traditional, instructor-led training for all
managers/supervisors in the Region’s contiguous States. 41 However, the training would
not have allowed for participant breakout and group discussions and could have limited
classroom exercises as well as networking opportunities. In addition, because of the
lack of IVT equipment and time zone issues in the Pacific Islands, some managers
would still need to travel to the United States. 42 Nonetheless, an IVT approach would
allow some networking between the participants if they were clustered at IVT sites.

            Figure 3: Distribution of IVT Sites in the San Francisco Region
                           Nevada                             Hawaii
                             4%                                3%


                     Arizona
                      13%




                                                             California
                                                               80%




40
 SSA has seven broadcast facilities in Baltimore, Maryland (three); Kansas City, Missouri; Atlanta,
Georgia; Dallas, Texas; and Seattle, Washington.
41
   The period of training might also vary. For instance, the training broadcasts could occur over a period
of weeks and months rather than over 3 days, creating a different experience for participants.
42
 We did not determine what other travel costs would be necessary within the Region to ensure every
manager had access to IVT equipment.


San Francisco Regional Management Training Forum (A-05-09-29174)                                         15
HEADQUARTERS’ OVERSIGHT AND GUIDANCE

Since December 13, 1985, SSA has had a policy for conferences, as outlined in
AIMS. 43 The policy provides guidelines and procedures for SSA-sponsored
conferences and meetings related to planning, control, and coordination. 44 Under this
policy, Regional Commissioners are required to request approval from SSA
Headquarters when planning conferences. For example, the guidance requires that
Regions and other components develop proposals for conference and meetings they
intend to sponsor during the next 2 years and submit those proposals to Headquarters
for approval. 45 The Commissioner’s approval was required for all off-site conferences.46
At the conclusion of a conference, the sponsoring component is required to provide
Headquarters with a post-conference evaluation, which includes an accounting of total
costs for travel and per diem as well as any costs incurred for conference space,
material, and services. 47

When we spoke to a management official in SSA’s Office of Finance, we were told the
Agency was no longer following this policy. The official stated that when SSA became
an independent agency in 1995, the AIMS policy on SSA-sponsored conferences and
meetings became void and the planning process was decentralized and delegated to
different SSA components. The executives of the components were given the authority
and budgets to make decisions regarding conferences under their purview. However,
we did not see wording in AIMS noting this policy change and delegation of authority
more than 10 years earlier. 48

On August 18, 2009, the Commissioner of SSA issued a memorandum on Conference
Management Improvement regarding the Agency’s planned oversight of conference
planning and associated procurement activities. In the memorandum, the
Commissioner centralized conference oversight and related procurement activity in the
Office of Budget, Finance and Management. In addition, a conference planning support
staff was established to

• provide clear guidance for conference planning and execution, including updating
  AIMS and publishing a conference guide on SSA’s website;
43
 SSA, AIMS, General Administration Manual (GAM), Chapter 4—SSA-Sponsored Conferences/
Meetings.
44
     SSA, AIMS, GAM § 04.01.01.
45
     SSA, AIMS, GAM §§ 04.01.03 and 04.01.04.
46
     SSA, AIMS GAM, § 04.01.05.
47
     SSA, AIMS GAM, § 04.01.07

48
  We also found indications that wording in Chapter 4 of AIMS had been updated since 1995, though the
centralized reporting provision was not removed. For example, the AIMS section references “ODAR,”
which replaced the Office of Hearings and Appeals in April 2006.



San Francisco Regional Management Training Forum (A-05-09-29174)                                   16
• implement a process for reviewing and approving all components’ upcoming
  conference plans at the beginning of each FY; and
• implement a post-conference process for evaluating conference planning and
  execution.

On September 24, 2009, the Agency held a meeting to provide senior staff with
templates for completing the different requirements at the different stages in the
planning and implementation of training conferences. This new process and some of
the associated forms are similar to the 1985 AIMS policies. Under the new guidelines,
Agency components were required to provide their proposed conference plans for
FYs 2010 and 2011 by November 30, 2009.

We support the Agency’s efforts to develop formalized policies and guidance regarding
the planning and oversight of conferences and associated procurement activities.
Adherence to improved policies and guidance should provide SSA with greater
assurance that its conferences comply with appropriate laws and regulations.

CONFERENCES IN THE PAST 8 YEARS
SSA has conducted approximately 180 conferences over the past 8 years for
approximately 34,000 employees at an estimated cost of $26 million (see Table 4). 49
To obtain this information, we polled SSA’s Headquarters and regional components and
asked them to provide information on SSA conferences held during the past 8 years.
Specifically, SSA components were required to report all meetings that met the
following criteria. 50

•    The conference was held from January 2001 through the present AND
•    SSA was the primary sponsor of an event held at a non-SSA facility, no matter how
     many employees attended OR 50 or more employees attended an event that
     another organization sponsored and SSA paid for travel or provided time-off for
     employees to attend (not to include grants or cooperative agreements) AND
•    It was a multi-day event AND
•    It required travel away from the employees’ duty stations.

In the case of fewer than 50 SSA employees where SSA was the primary sponsor, we
qualified the reporting requirement to cover only those conferences where the supplies
and/or services exceeded $25,000 and required a competitive bidding process.


49
  Most reporting components have additional meetings planned for FY 2010. These planned meetings
are not included in the above totals but will be reviewed as part of a separate review.
50
   The request for conferences was shared with Agency components on July 23, 2009. For each
conference satisfying the reporting criteria, components were requested to submit a meeting agenda, a
list of attendees, the names of speakers, and a detailed breakdown of all conference costs.


San Francisco Regional Management Training Forum (A-05-09-29174)                                        17
                      Table 4: SSA Conferences Since January 2001
                           (January 2001 Through August 2009)
                                          Number of           Number of
            Component                    Conferences          Attendees          Reported Costs
 Office of Budget, Finance and
                                                        1               254                  $95,144
 Management
 Office of the Commissioner                             1                 24                   60,912
 Office of Communications                               7             2,219                2,710,382
 Office of Disability Adjudication
                                                       32             4,695                4,750,921
 and Review
 Office of General Counsel                             14             1,327                  213,659
 Office of Human Resources                             33             7,460                7,593,319
 Office of the Inspector General                        4               325                  400,481
 Office of Operations                                  59            15,783                7,462,524
 Office of Quality Performance                          1               139                  112,249
 Office of Retirement and
                                                       32             2,023                3,038,846
 Disability Policy
 Office of Systems                                      1               180                    42,691
 Totals                                              185             34,429              $26,481,128
Note: The following components reported having no meetings that satisfied the aforementioned criteria:
Offices of the Chief Actuary, Chief Information Officer, and Legislative and Congressional Affairs.

Because of time restraints, we did not apply audit procedures to test or otherwise
validate the reported conference information for accuracy or completeness. However,
we made limited inquiries of SSA management for additional explanation in those
instances where reported data appeared anomalous. In some instances, we made
numerical adjustments to reported data based on management’s supplemental
representations. Most Agency components could not provide all the requested
information, particularly for those meetings more than 5 years ago. Given the length of
time elapsed since meetings were held in some instances, we believe the reported cost
and attendee information is incomplete and understated by an indeterminate amount.

REGIONAL CONFERENCES

The regional offices informed us of 35 meetings that satisfied the reporting criteria (see
Table 5), with the San Francisco Region holding the greatest number of conferences—
11 in total at a reported cost of approximately $1.3 million—during the past 8 years.
The average number of conferences during this timeframe was 3.5 per region, with
Chicago and Philadelphia reporting no conferences.




San Francisco Regional Management Training Forum (A-05-09-29174)                                     18
                       Table 5: Regional Conferences since January 2001
                              (January 2001 Through August 2009)
                                                Number of             Number of                Reported
                   Region                      Conferences            Attendees                 Costs
 Atlanta                                                  3                  1,224              $    772,552
 Boston                                                   5                    683                   238,679
 Chicago                                                  0                     NA                        NA
 Dallas                                                   2                    308                   199,700
 Denver                                                   2                    250                   210,419
 Kansas City                                              2                    792                   368,871
 New York                                                 7                  1,087                   567,569
 Philadelphia                                             0                     NA                        NA
 San Francisco                                           11                  2,768                 1,334,467
 Seattle                                                  3                    901                   379,948
 Totals                                                  35                  8,013              $ 4,074,646

The San Francisco Region hosted 11 conferences for approximately 2,800 attendees
from January 2001 to August 2009. However, the San Francisco office hosted
conferences that benefited other regions, Headquarters, or both, as explained in
Appendix I. In addition, 6 of the 11 related to support for SFRMA training conferences.

OIG REVIEWS OF PRIOR TRAINING AND CONFERENCES
We have completed three audits and one investigation related to training conferences at
SSA in the past 5 years. 51 The audits addressed the training of systems staff, ALJs,
and field office staff, whereas the investigation related to a diversity conference. We
found Agency oversight problems in our audit of the ALJ training conferences as well as
the investigation of the Atlanta Diversity Conference.

AUDITS OF TRAINING AND CONFERENCES

The following three audits of training conferences at SSA were conducted in the past
5 years.

Office of Systems Training

Our October 2005 audit of The Social Security Administration's Office of Systems'
Training Program evaluated the Office of Systems’ process for providing training to
current staff and new hires. The review covered training opportunities, the types of
training provided, and the cost of training for current staff and new hires to enhance
skills/competencies needed to meet future workloads. The audit found that, in general,
the Office of Systems had a comprehensive process for providing training to its
employees. Training opportunities included classroom instruction provided by Agency
employees or vendors, SSA’s training Website, conferences, technical reference
materials, and IVT.

51
     We also have a fourth audit in the draft stage related to the hiring and training of IT specialists.


San Francisco Regional Management Training Forum (A-05-09-29174)                                            19
The report also noted that there were opportunities for the Office of Systems to enhance
its processes to help ensure continued success in providing employees essential
training to improve the skills/competencies they will need to meet future workloads. The
report made two recommendations: (1) remind managers of their responsibilities for
conducting periodic discussions regarding employee training needs and (2) remove
duplicate postings of training information in its Human Resource Management
Information System (HRMIS). 52 SSA agreed with both recommendations.

ALJ Training

Our April 2008 audit of the Association of Administrative Law Judges' Training
Conference Costs (1) examined SSA’s contributions to previous Association of
Administrative Law Judges (AALJ) training conferences; (2) assessed the support for
and reasonableness of conference costs; and (3) evaluated the nature of the training
provided to determine the appropriateness of continued SSA support. The AALJ has
conducted annual training conferences since 1992 to assist ALJs in meeting their
education needs. Each year, between 150 and 250 ALJs attended the 3-day
conference. Over the years, SSA has assisted the AALJ with logistics and financial
support to conduct the training conference including

•    travel for presenters, management ALJs, and Headquarters personnel;
•    fees and contract support for presenters;
•    financial support for printed material, audiovisual, and rental equipment;
•    duty time for those who attend, present, and/or organize the conference; and
•    reimbursement of attendee registration fees.

We found that SSA provided approximately $888,900 in financial and in-kind support to
the AALJ to conduct four training conferences during Calendar Years 2003 to 2006 (see
Table 6). Moreover, SSA paid for the entire cost of the Calendar Years 2004 to 2006
conferences, leaving the AALJ with residual funds that could be applied to other union
programs.53 We also found that SSA spent $354,800 on the 2006 AALJ training
conference once conference support and management travel costs were combined.




52
   HRMIS is a database for staffing reports, promotion plan operations, employee training data, personnel
research and program evaluation, Equal Opportunity statistics, and management information. Information
in HRMIS files is available for both present and former employees.

53
  The AALJ’s treasurer noted that the excess funds were placed in a conference fund to support future
conferences.


San Francisco Regional Management Training Forum (A-05-09-29174)                                        20
          Table 6: Total SSA Contribution to the AALJ Training Conferences
                            (Calendar Years 2003 – 2006)
   Support Provided             2003            2004             2005              2006            Total
 Direct Costs                  $72,011         $65,652          $72,043           $89,739        $299,445
 Indirect Costs                 89,013          72,749           86,223            80,566         328,551
 Reimbursement for
                                49,965           56,302           62,650           92,000         260,917
 Registration Fees1
 Total                       $210,989         $194,703         $220,916         $262,305         $888,913
        Note 1: Registration fees were $295 per attendee in 2003, $325 per attendee in 2005,
                and $350 per attendee in 2005 and 2006. SSA reimbursed attendees in full for
                these fees with the exception of 2005, when only $295 of the $325 was
                reimbursed.

In our review of the 2006 conference costs, we concluded that SSA and the AALJ could
generally support the underlying conference costs. However, we identified AALJ
expenses that would not normally be reimbursed by SSA, including a reception, a
banquet, and entertainment. Moreover, training revenues versus other types of revenue
were not clearly delineated in the AALJ’s audited financial statements, making it difficult
to isolate revenue associated with training participants.

ODAR management stated the conference provided useful training to ALJs, though they
would prefer more control over the topics and greater attendance rotation. The report
noted that the level of support provided by SSA indicated that the Agency could run the
entire conference in-house and have greater control over expenditures, topics, and
attendance. In this way, SSA would (1) control all costs, (2) ensure the topics meet
ODAR’s training requirements, (3) ensure full or rotational attendance of all ALJs, and
(4) avoid potential duplication of costs. This would also remove any risk that the
Agency is improperly providing support to an employee union. 54

In the report, we recommended SSA (1) end its support for the AALJ training
conference and conduct its own in-house training for ALJs and (2) review and revise
AIMS policies and procedures regarding registration fees for non-government-
sponsored training and conferences to clearly state unallowable costs to ensure
conferences are funded in accordance with Federal appropriation law. Following our
review, the Agency decided to conduct its own in-house training for ALJs.

Field Office Training

Our July 2008 audit, The Social Security Administration Field Offices' Training of Staff,
reviewed SSA field offices’ training of claims (CR) and service representatives (SR) to
determine field office employees' perception of the training provided. SSA has about
1,300 field offices nationwide where individuals can apply for benefits, apply for a Social


54
  Under the Federal Service Labor-Management Relations Statute, it is an unfair labor practice to
“…sponsor, control, or otherwise assist any labor organization, other than to furnish, upon request,
customary and routine services and facilities if the services and facilities are also furnished on an
impartial basis to other labor organizations having equivalent status.” 5 U.S.C. § 7116(a)(3)(1999).


San Francisco Regional Management Training Forum (A-05-09-29174)                                        21
Security number, and report changes that affect their benefits. Field office staff
comprises approximately 14,000 CRs and 5,000 SRs who provide front-line service to
the public.

To determine field office employees’ training satisfaction, we asked a random sample of
275 CRs and 275 SRs to complete a questionnaire pertaining to their perception of the
general and disability-related training they received during FYs 2006 through 2007. Of
the 550 field office employees in our sample, we received responses from 426, of which
216 were CRs and 210 were SRs.

In the report, we concluded that SSA had a structured training program, and the training
was accessible to field office employees. We also determined most CRs and SRs
responding to our questionnaire were satisfied that the general and disability-related
training received for their position had helped them do their job effectively and
efficiently, and the training was provided timely. However, most staff perceived barriers
to training existed and expressed a need for SSA to improve the training experience.

We recommended SSA improve CR and SR training as follows: (1) provide more
“hands on” and refresher training to reinforce lessons learned and resolve questions
that emerge from work experiences; (2) provide more time for training to permit staff to
remain proficient in the delivery of services to the public; and (3) ensure staff members
are aware they can communicate their training needs to management. The Agency
agreed with all three recommendations.

INVESTIGATION OF TRAINING AND CONFERENCES

In the last 5 years, we have completed one investigation of a conference. The Office of
Investigations initiated a review of the 2006 SSA Diversity Conference as a result of an
allegation concerning travel voucher fraud by two SSA employees. The investigation
eventually expanded to four SSA employees in total.

The 2006 Diversity Conference was held in Atlanta, Georgia, and sponsored by SSA
Headquarters and the Atlanta Region. Attendees, including employees, were required
to pay their own travel and lodging expenses if they wished to attend. Attendees also
paid a conference activity fee of $105 covering the reception on the first day and dinner
the next evening. SSA paid travel expenses for a certain number of employees who
were either involved in the planning and execution of the conference, held one of
several executive level positions, and/or held a position on one of six Advisory Councils.
The budget for the conference was approximately $700,000.

The investigation found issues with the procurement of speakers and trainers,
entertainment, and giveaways. For example, some items were purchased using the
micro-purchase process rather than submitting a requisition to the Agency’s Office of
Acquisition and Grants. In other cases, employees used split purchasing to circumvent
the $2,500 micro-purchase threshold to acquire these items. In addition, questionable
practices were used to pay transportation costs for the speakers hired to give



San Francisco Regional Management Training Forum (A-05-09-29174)                        22
presentations during the conference. The investigation also found SSA paid for other
types of entertainment, including massage therapists, a juggling stilt walker, a strolling
magician, a caricature artist, and a clown. This entertainment was justified by the
conference planners as being necessary to help create a festive atmosphere at the
conference.

The investigation also found that vendors selected for the conference were not selected
through a competitive bidding process. Finally, the investigation found funds were
misused for payments to a vendor, a private bus tour, t-shirts for conference planners,
hotel room costs of various employees, a hospitality suite, and a private lunch.

As a result of the investigation, two employees retired and a third employee was
suspended for 3 days for travel voucher fraud. The fourth employee was charged with
fraud and terminated, though this employee was later found to be “not guilty” after a
trial, and the termination was later overturned by the Merit Systems Protection Board.
One of the retired employees also pled guilty to eight counts of theft of Government
monies unrelated to the 2006 Diversity Conference but discovered as part of the
conference investigation. The employee was sentenced to 12 months’ home
confinement, 36 months’ probation, a $2,000 fine, an $800 special assessment,
$28,058 in restitution, and 200 hours of community service.




San Francisco Regional Management Training Forum (A-05-09-29174)                         23
                                                                  Conclusions
While we found that the majority of the costs incurred at the Training Forum were
properly supported and in compliance with Agency guidance and applicable laws and
regulations, we identified issues related to (1) questionable reception costs, (2) the
acceptance of gifts and donations from outside sources, and (3) incomplete
documentation related to contract procurement. Given the findings of this report, as
well as the issues identified in our audits and investigation, it is critical that SSA closely
monitor the planning and procurement related to future conferences. As noted in this
report, SSA has used conferences more than 180 times at a reported cost of
approximately $26 million in the past 8 years as part of its mission. The steps being
taken by the Commissioner to centralize monitoring of Agency conferences should
provide increased assurance that such conferences comply with applicable laws and
regulations.




San Francisco Regional Management Training Forum (A-05-09-29174)                             24
                                         Appendices




San Francisco Regional Management Training Forum (A-05-09-29174)
                                                                   Appendix A

Acronyms
    AALJ                   Association of Administrative Law Judges
    AIMS                   Administrative Instructions Manual System
    ALJ                    Administrative Law Judge
    ARRA                   American Recovery and Reinvestment Act of 2009
    C.F.R.                 Code of Federal Regulations
    CR                     Claims Representative
    DDS                    Disability Determination Services
    FAR                    Federal Acquisition Regulation
    FBO                    Federal Business Opportunities
    FY                     Fiscal Year
    GAM                    General Administration Manual
    GAO                    Government Accountability Office
    GPO                    Government Printing Office
    HRMIS                  Human Resource Management Information System
    IT                     Information Technology
    IVT                    Interactive Video Teletraining
    MPT                    Micro-Purchase Threshold
    MRM                    Materiel Resources Manual
    ODAR                   Office of Disability Adjudication and Review
    OIG                    Office of the Inspector General
    PSC                    Program Service Center
    SAT                    Simplified Acquisition Threshold
    SFRMA                  San Francisco Region Management Association
    SR                     Service Representative
    SSA                    Social Security Administration
    Training Forum         Regional Management Training Forum
    TSC                    Teleservice Center
    U.S.C.                 United States Code




San Francisco Regional Management Training Forum (A-05-09-29174)
                                                                   Appendix B

Conference Agenda and Workshops
                             CONFERENCE AGENDA

Tuesday, July 7, 2009 (12:30 p.m. – 4:30 p.m.)

 12:30 p.m.     Doors open

 12:45 p.m. –   Color Guard/National Anthem
  1:00 p.m.

 1:00 p.m. –    Opening Ceremony
 1:30 p.m.

 1:30 p.m. –    Peter D. Spencer
 2:15 p.m.      Regional Commissioner, San Francisco
                Social Security Administration

 2:15 p.m. –    Presentation from Mayor Phil Gordon’s Office
 2:30 p.m.      City of Phoenix, Arizona

 2:30 p.m. –    Network Break
 3:00 p.m.

 3:00 p.m. –    Door prize / Administrative information
 3:15 p.m.

 3:15 p.m. –    Linda S. McMahon
 4:30 p.m.      Deputy Commissioner for Operations
                Social Security Administration

 4:30 p.m.      Adjourn

 6:00 p.m.      Reception (optional)




San Francisco Regional Management Training Forum (A-05-09-29174)           B-1
Wednesday, July 8, 2009 (8:00 a.m. – 5:00 p.m.)

 7:00 a.m. –     Morning Refreshments
 8:00 a.m.

 8:00 a.m. –     Opening skit/presentation
 8:15 a.m.
 8:15 a.m. –     Michael J. Astrue
 9:15 a.m.       Commissioner
                 Social Security Administration

 9:15 a.m. –     Stretch Break (activity)
 9:25 a.m.

  9:25 a.m. –    Jason J. Fichtner, Ph.D.
 10:15 a.m.      Deputy Commissioner (Acting)
                 Social Security Administration

 10:15 a.m. –    Network Break
 10:45 a.m.

 10:45 a.m. –    Concurrent Workshop Sessions
 12:15 p.m.

 12:15 p.m. –    Lunch
  2:00 p.m.      “Why They Make You Crazy” – A look at behavioral tendencies
                 and workplace relationships

                 Bobbie Staten
                 Certified Speaking Professional

 2:00 p.m. –     Concurrent Workshop Sessions
 3:30 p.m.

 3:30 p.m. –     Network Break
 4:00 p.m.

 4:00 p.m. –     Dr. Reginald F. Wells, Ph.D.
 5:00 p.m.       Deputy Commissioner for Human Resources
                 Social Security Administration

 5:00 p.m.       Adjourn




San Francisco Regional Management Training Forum (A-05-09-29174)               B-2
Thursday, July 9, 2009 (8:00 a.m. – 12:15 p.m. for the Training Forum & 1:15 p.m.
– 4:30 p.m. for Area/Component Meetings)

 7:00 a.m. –     Morning Refreshments
 8:00 a.m.

 8:00 a.m. –     Concurrent Workshop Sessions
 9:30 a.m.

 9:30 a.m. –     Break
 9:45 a.m.

 9:45 a.m. –     Executive Panel – Patty Robidart, moderator
 11:15 a.m.
                 Panel Participants:

                 Mary Glenn-Croft, Deputy Commissioner for Budget, Finance &
                 Management
                 Phil Gambino, Asst. Deputy Commissioner for Communications
                 William Gray, Deputy Commissioner for Systems
                 Marianna LaCanfora, Asst. Deputy Commissioner for Retirement &
                 Disability Policy
                 Ron Raborg, Assistant Deputy Commissioner for Disability,
                 Adjudication and Review

 11:15 a.m. –    Stretch Break
 11:30 a.m.

 11:30 a.m. –    Dynamic Speaker/Closing
 12:15 p.m.
                 AXIS Dance Company

 12:15 p.m.      Forum Adjournment

 12:15 p.m. –    Lunch on your own
  1:15 p.m.

 1:15 p.m. –     Component/Area Meetings
 4:30 p.m.


Source: San Francisco Region




San Francisco Regional Management Training Forum (A-05-09-29174)                  B-3
                          WORKSHOP DESCRIPTIONS
                Multigenerational Communication: What You Need
             to Know to Effectively Manage Four Generations at Work
                                    Sheila Haji

This dynamic workshop provides you with insights and ideas to enhance your impact in
everyday workplace scenarios by recognizing “generational disconnects” and
understanding how to flex your communication style to meet the unique needs and
expectations of a multigenerational workforce.

Wednesday, 7/8 from 10:45 a.m. – 3:30 p.m. (2 part workshop)

                                  RelationShifts
        Erika Lawrence, Laurie Schoendorfer, Gina Suazo-Lopez, Inez Yanora

RelationShifts is about empowering you to shift to higher, more productive levels of
relationships at work, which results in a higher level of commitment to achieving
extraordinary results. This unique workshop experience will enable you to create a
dramatic change in the way you relate to your work, your colleagues, our organization
and our customers.

Wednesday, 7/8 from 10:45 a.m. – 3:30 p.m. (2 part workshop)

                                Removing the Barriers
                                  Pete Cinquemani

This workshop discusses a hands-on problem solving process that gives employees
the opportunity to identify area of conflicts and concerns in the workplace and options
or solutions to address them. Traditional problem solving asks that behavior be
changed. This technique requires personal commitment and ownership of behavior
and actions to effectuate change.

Wednesday, 7/8 from 10:45 a.m. – 3:30 p.m. (2 part workshop)

               A Leadership Role in Strategic Management Planning
                                   Rafael Moya

What makes an effective leader? How can you maximize your resources? This
workshop will give you the tools you need to influence growth and change, create a
positive work environment through participative decision-making, and learn ways to
see the "big picture." Join us for this interactive seminar and learn how to be a
strategic leader. Managers fight fires, leaders prevent fires.

Wednesday, 7/8 at 10:45 a.m. & 2:00 p.m.




San Francisco Regional Management Training Forum (A-05-09-29174)                      B-4
                  Managing Diverse People: A Real Conversation
                                 Marquita Beene

Embracing diversity is a critical skill for all employees, but especially managers. Most
managers could teach the basics of diversity, so why are there so many discrimination
lawsuits? Why do people still feel unwelcome or unaccepted in the workplace? This
interactive workshop provides a forum to discuss diversity and management for
seasoned employees.

Wednesday, 7/8 at 10:45 a.m. & 2:00 p.m.
Thursday, 7/9 at 8:00 a.m.

                                  eServices in SSA
                               Michelle King, Tom Tobin

Speak to the Agency’s leaders on eServices in SSA. Find out how far we’ve come in
the eServices arena and where we plan to be. Learn about new and innovative
agency initiatives and how they will change the face of SSA and help us to meet the
workload challenges ahead.

Wednesday, 7/8 at 10:45 a.m.

                              Mentoring the Generations
                                   Sonia L. Aranza

The environment we engage in has changed and these changes are irreversible. More
than ever, there is a diversity of thoughts, ideas, attitudes, beliefs, behaviors and
values. This workshop will help you engage effectively across all dimensions of
difference.

Wednesday, 7/8 at 10:45 a.m. & 2:00 p.m.

     Emotional Intelligence: Leading Organizations and Transitional Change
                                    Gail Leon

This engaging workshop will provide insight into you as a leader, organizer and
catalyst for change. You will learn to “lead from where you stand” and focus on a wide
array of competencies and skills that drive leadership performance.

Wednesday, 7/8 at 10:45 a.m. & 2:00 p.m.




San Francisco Regional Management Training Forum (A-05-09-29174)                      B-5
                                 Policy Perspectives
                                 Marianna LaCanfora

Common goals, creative solutions! What is the Office of Retirement and Disability
Policy and what do they do? What's driving SSA in terms of programs, staffing and
beneficiaries/recipients? How do we change policy? What are the internal challenges
to changing policy? What are the hot policy issues? These questions and more will be
answered in this unique workshop.

Wednesday, 7/8 at 2:00 p.m.

                   Reasonable Accommodation: The Big Picture
                           Bill Shie, Elena Stonebraker

The law has changed! Find out how these changes affect you. Learn how to
recognize potential Reasonable Accommodation issues and what actions are needed
when certain indicators are present. Find out about confusing overlap issues between
SSA Disability, Workers’ Compensation, and Schedule A Hiring Authority and who
decided certain Reasonable Accommodation requests.

Note: Recommended for 1st line FO and TSC supervisors who have NOT had the
training since April 2009 (except the Richmond TSC)

Thursday, 7/9 at 8:00 a.m.

             Health Information Technology Communication Strategy
                                   Jim Borland

As the first government agency to utilize the Nationwide Health Information Network
gateway to receive medical records for some disability applicants, SSA’s is the
forerunner in the Health Information Technology (IT) arena. Jim Borland is the
Commissioner's Special Advisor for Health IT and will share the Agency’s plans for and
use of health IT to improve our disability program.

Thursday, 7/9 at 8:00 a.m.

     Improving Organizational Performance Through Employee Engagement
                                  John Crum

Studies show that the level of employee engagement can make a major difference in
organizational performance. If engagement has such a powerful effect on
organizational outcomes, is there anything agencies can do to increase employee
engagement? The answer is yes. Supervisory behaviors can make the difference.

Thursday, 7/9 at 8:00 a.m.


San Francisco Regional Management Training Forum (A-05-09-29174)                    B-6
                              Interest Based Bargaining
                                   Pete Cinquemani

Interest Based Bargaining is a collaborative process used for contract negotiations and
daily problem solving that will benefit the organization as a whole. Learn how to attack
the problem, not people. Decisions are based on Objective Criteria, not power.

Thursday, 7/9 at 8:00 a.m.

                Leading at a Higher Level: SES Career Development
                                       Panel

Where do you see yourself in 5 years? 10 years? Join a panel of current SES Career
Development Program Associates from this region (or who have had assignments in
this region) that asked the same question about their careers. Find out what steps
they took to prepare themselves for placement in the SES.

Thursday, 7/9 at 8:00 a.m.


Source: San Francisco Region




San Francisco Regional Management Training Forum (A-05-09-29174)                      B-7
                                                                                Appendix C

Scope and Methodology
To accomplish our objective, we:

•   Reviewed laws and regulations pertaining to training and procurement activities at
    Federal agencies, including the Federal Acquisition Regulation.

•   Reviewed the Social Security Administration’s (SSA) policies and procedures
    pertaining to training and procurement, including the Administrative Instructions
    Manual System.

•   Reviewed contracts, receipts, invoices, payments, and other documentation
    associated with the planning and procurement of training conference facilities and
    services for the Regional Management Training Forum. We also reviewed travel
    costs submitted by a sample of 45 SSA employees who attended the Forum. As
    part of this review, we determined whether these activities were in compliance with
    Agency guidance and applicable laws and regulations.

•   Obtained information on SSA conferences conducted over the past 8 years. To do
    this, we worked with the Agency’s Audit Liaison team and contacted all the Agency’s
    components requesting any meetings or conferences that met the following criteria.

     The conference was held from January 2001 through present 1 AND
     SSA was the primary sponsor of an event held at a non-SSA facility, no matter
      how many employees attended OR 50 or more employees attended an event
      that another organization sponsored and SSA paid for travel or provided time-off
      for employees to attend (not to include grants or cooperative agreements) AND
     It was a multi-day event AND
     It required travel away from the employees’ duty stations.

    In the case of fewer than 50 SSA employees where SSA is the primary sponsor, we
    qualified the reporting requirement to cover only those conferences where the
    supplies and/or services exceeded $25,000 and required a competitive bidding
    process.

•   Reviewed prior Office of the Inspector General audits and investigations of SSA
    training conferences held over the past 5 years.


1
 Since the data request went out in late July 2009 and some components reported complete data for
August 2009, we included these submissions.


San Francisco Regional Management Training Forum (A-05-09-29174)                                    C-1
•   Interviewed San Francisco and Chicago regional officials and staff as well as
    Headquarters staff, including staff in the Offices of Finance, Human Resources, and
    Learning.

In this review, we are not opining on the appropriateness of (1) the use of conferences
as a training method or (2) holding a conference at the Phoenix, Arizona, location. We
found the Regional Management Training Forum cost data used in our review to be
sufficiently reliable to meet our objectives. We did not perform a separate review of the
other training information submitted by SSA components covering conferences over the
past 8 years because of the volume of submissions and the short timeframe for this
review. As a result, we were unable to determine the reliability of these additional costs.

The entity audited was the Office of the Deputy Commissioner for Operations. We
conducted this performance audit from July through October 2009 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




San Francisco Regional Management Training Forum (A-05-09-29174)                       C-2
                                                                               Appendix D

Detailed Regional Management Training Forum
Expenses

                Expense Description                            Subtotal               Total1

 Travel Detail
 -- Transportation, Lodging and Meals/Incidental
                                                                   $503,774
 Expenses
 Travel Total                                                                            $503,774
 Hotel Detail (Arizona Biltmore Hotel)
 -- Reception/Registration2                                         $13,406
 -- Morning Breaks (2 days)2                                        $20,128
 -- Luncheon (1 day)2                                               $13,514
 -- Afternoon Breaks (2 days)2                                      $20,128
 Hotel Total3                                                                              67,1764
 Audiovisual Total
 -- Swank Audio Video                                               $67,816
 Audiovisual Total                                                                          67,816
 Instructor Details
 -- Common Ground Consulting Serves, Inc.—                           $6,000
 Multigenerational Communication Training
 -- AXIS Dance Company—Diversity Training                              5,250
 -- Sonia L. Aranza—Mentoring The Generations                          7,500
 Training
 -- B. Staten & Associates, Inc.—Why They Make                         5,500
 You Crazy
 Instructors Total                                                                          24,250
 Other Cost Details
 -- Printing (Government Printing Office)                            $3,311
 -- Conference Registration Service                                   2,985
 -- Supplies                                                          5,769
 Other Total                                                                               12,065
 Total Conference Costs                                                                  $675,081
Notes: (1) Represents reported costs as of September 24, 2009. These expenses do not include salary
       costs associated with the time SSA employees spent to attend and travel to the conference.
       (2) Prices relate to 670 planned attendees.
       (3) The Region also spent $642 on a separate labor relations training held the day after the
       conference.
       (4) The original contract was $80,100 and included a third afternoon break, which was later
       removed. An adjustment of $1,932.16 on the final invoice reduced the costs from $69,750 to
       $67,818 (less the $642 noted in note 3 above).



San Francisco Regional Management Training Forum (A-05-09-29174)
                                                                        Appendix E

Conference Exhibitors
Eleven SSA exhibitors attended the San Francisco Regional Management Training
Forum in Phoenix, Arizona. Eight of the exhibits were sponsored by the San Francisco
Region, and three were sponsored by the Social Security Administration’s
Headquarters.

•   Center for Materiel Resources (Region): Exhibit on "green" initiatives and
    educational materials providing "green" information for office and home

•   Center for Programs Support (Region): Information on e-services, including
    recent and upcoming systems releases, and a demonstration of the newly
    redesigned Center for Programs Support Website

•   Center for Automation (Region): Provided highlights/demonstrations of new
    software: Live Meeting, Office 2007, VISTA and SharePoint

•   Center for Human Resources - Staffing and Classification (Region): Exhibit
    with recruitment information and materials

•   Center for Human Resources - Benefits/Wellness (Region): Information on
    Employee Education, Electronic Services, and Health and Wellness

•   Center for Disability (Region): Information on Military Casualty/Wounded Warrior
    (information about the proactive tools to help process these high-visibility cases) and
    Ticket to Work and other return to work programs

•   Center for Security and Integrity (Region): Information on Security Assessment
    and Funded Enhancement and document authentication

•   Civil Rights and Equal Opportunity (Region): Information from three San
    Francisco Regional Advisory Groups (Hispanic Affairs Advisory Council, Pacific
    Asian Advisory Council, and Council of Employees with Disabilities)

•   Office of Learning (Headquarters): Highlighted the Learning and Development
    Roundtable available to every SSA employee

•   Office of Communications (Headquarters): Demonstration of Social Security TV

•   SSA Historian (Headquarters): Demonstration of new on-line system for getting
    information

Source: San Francisco Region


San Francisco Regional Management Training Forum (A-05-09-29174)
                                                                    Appendix F

Conference Donations
The following items and services were provided to the San Francisco Region as part of
the Regional Management Training Forum. A regional official stated most of the items
were distributed to conference attendees as door prizes.

Blue Cross/Blue Shield

   Pens
   Dental floss
   Key chains with flashlights
   Cloth eyeglass cleaner

Tohono O'Odham Tribe

   40 water bottles
   40 other items (t-shirts, bags, etc.)
   Playing cards
   Mints
   Pens

Starbucks

 2 - $15 gift cards

Chicago Cubs Baseball Team

 Cubs jacket

Oakland Athletics Baseball Team

   4 A's team jerseys
   4 A's T-shirts
   8 bobbing head dolls
   8 A's hats
   6 insulated coolers
   Miscellaneous pens, calendars, etc.
   6 blankets
   Autographed baseballs




San Francisco Regional Management Training Forum (A-05-09-29174)                   F-1
Los Angeles Dodgers Baseball Team
 4 hats
 4 t-shirts
 4 bobbing head dolls
 Miscellaneous pens, pennants, water bottles

Milwaukee Brewers Baseball Team
 1 jacket
 4 hats

Arizona Diamondbacks Baseball Team
 Autographed picture

All other items were donated by managers from the Region. This included gift cards for
various stores, movie passes, gift cards for restaurants, gas cards, and sports-related
items.

In addition, the San Francisco Region Management Association provided a disc jockey
for the reception on the first night of the conference. The Region estimated the
donation value to be approximately $1,200.

Other than the disc jockey, the Region was unable to provide an estimate on the value
of the donations. However, regional managers noted that no Government funds were
used to procure any of these items.




San Francisco Regional Management Training Forum (A-05-09-29174)                    F-2
                                                                                   Appendix G

Procurement Methods
According to the Social Security Administration’s (SSA) Administrative Instructions
Manual System (AIMS), the Agency’s policy is to conduct the acquisition process using
full and open competition to the maximum extent practicable and not restrict competition
for purchasing supplies and services. Below, we outline SSA’s basic procurement
requirements that applied to procurement for the Regional Management Training
Forum, as found in AIMS and additional relevant support from the Federal Acquisition
Regulation (FAR).

MICRO-PURCHASE/CREDIT CARD (LESS THAN $2,500/$3,000)
This process is used for an acquisition of supplies or services, using simplified
acquisition procedures, 1 the aggregate amount of which does not exceed the micro-
purchase threshold (MPT) of $2,500 for services and $3,000 for supplies or goods. 2
Although not required to solicit from a specific number of schedule contractors, staff with
micro-purchase authority should attempt to distribute orders among contractors. 3

CONFERENCE PROCUREMENT

The Region contracted for approximately $12,100 for supplies, printing, and registration
services. The Region followed the required procurement polices when procuring these
items.

Supplies

In general, we found that the supply expenses for the conference were in accordance
with Agency policy. The Region spent approximately $5,800 on such items as pens,
folders, tote bags, name badges, and badge holders. These costs also included
handheld fans and outdoor kits. We spoke to regional management about these costs,
and they explained all the items were necessary expenses. For example, the tote bags
were necessary to carry the course materials. In the case of handheld fans and outdoor
kits, management stated that they were issued as a health and safety measure because
of the extreme heat in Arizona. For example, the outdoor kit included sunscreen, a
band aid, and hand sanitizer. The handheld fans cost $0.63 each, and the outdoor kits
cost $1.43 each.



1
  Simplified acquisition procedures are the methods for purchasing supplies or services that are specified
in the FAR Part 13.
2
    AIMS, Materiel Resources Manual (MRM), Chapter 06.06—Competition in Acquisitions, § 06.06.03.
3
    FAR, subpart 8.405—Federal Supply Schedules, § 8.405-1(b); 48 C.F.R. § 8.405-1(b).

San Francisco Regional Management Training Forum (A-05-09-29174)                                       G-1
Printing

The Region incurred approximately $3,300 in printing costs. Approximately $2,700
related to the Government Printing Office (GPO) costs for producing copies of training
materials. GPO is a mandatory supply source for Agency printing. The Region also
procured $600 for printing supplies, such as paper and toner.

Registration

The Region procured approximately $2,985 in registration service software and
services. 4 The software allowed the conference participants to register for different
workshops and print out individual agendas. In addition, the software allowed the
Region to create, format, and print name badges. Currently, SSA does not have an in-
house software program that performs this function. It is possible that greater
coordination within the Agency on future conferences could lead to the ability to create
or maintain an in-house program that can provide such services.

OPEN MARKET ACQUISITIONS (MPT TO $25,000)
This process is used to acquire services or supplies over the MPT and not exceeding
$25,000. This type of acquisition requires the following.

•     Consider at least three sources to the maximum extent practicable. 5
•     In the case of any restrictions in considering sources, a statement attached to, or
      included on, the requisition explaining the rationale (including any market research
      conducted) that substantiates the decision for limiting consideration of sources to a
      single source and/or a brand name. 6
•     The concurrence and approval requirement includes at least one management level
      above the contract officer’s technical representative and a contracting officer. 7

CONFERENCE PROCUREMENT

The San Francisco Region contracted with four parties in an amount that exceeded the
$3,000 threshold for services but was less than $25,000. All four contracts related to
vendors providing instructional courses or presentations at the conference. Regional
staff used the SSA Office of Learning’s Training Vendor Database as their resource for
the trainers in three of the four cases. This database is a compilation of vendors whom




4
    The software expires 1 year after the date of purchase.
5
    AIMS, MRM, § 06.06.06 B.1.
6
    AIMS, MRM, § 06.06.06 B.2.
7
    AIMS, MRM, § 06.06.08.

San Francisco Regional Management Training Forum (A-05-09-29174)                         G-2
SSA has used in the past to present various topics. The fourth vendor, which provided
a dance program, was selected based on the Agency’s past experience with this
vendor.

Regional officials explained that the Region formed a committee to determine the types
of training and select the training instructors for the San Francisco Regional
Management Training Forum. However, when we requested information regarding the
committee’s discussion, we were told the committee did not maintain any meeting
minutes or documentation related to its activities. Regional officials explained that the
committee used the Office of Learning’s Training Vendor Database to select potential
trainers for the Forum. The potential trainers’ presentations were evaluated by the
committee members and presented to the Region’s executives at their weekly meeting
before the final selection of the speakers. The prices or costs of the trainers were not
reviewed until after their selection. 8

We were able to locate two of the vendors on the Office of Learning’s Training Vendor
Database (see Table G-1). Regional staff noted that a third vendor was also present on
an earlier list, but the committee had not maintained a copy of this earlier list. In
addition, the presence of these vendors on the Training Vendor Database did not
eliminate the requirement that the Region provide a justification for its selection, which
was not provided in the documentation we received. The Region could improve its
internal controls over future procurement by maintaining sufficient documentation to
demonstrate the steps used in identifying and selecting a supplier or vendor. 9

                                 Table G-1: Contracted Trainers
                                                                     Found on Vendors/
                                                                       Speakers List
                  Contractor/Forum Session                          Provided to Auditors          Cost
    Common Ground Consulting Services, Inc. (Sheila                         No                    $6,000
    Haji) – Multigenerational Communication Training
    AXIS Dance Company - Diversity Training                                   No                    5,250
    Sonia L. Aranza – Mentoring The Generations Training                      Yes                   7,500
    B. Staten & Associates, Inc. (Bobbie Staten) – Why                        Yes                   5,500
    They Make You Crazy

AXIS Dance Company was not on the Training Vendor Database. Regional
management explained that one of the Region’s major initiatives in Fiscal Year 2009

8
  The Region provided a copy of the potential trainers for the upcoming conference, but the majority of the
listed names and organizations lacked pricing data.

9
  For example, the FAR contains guidance for file documentation and retention in special situations, which
indicates that agencies should include additional statements (i) explaining the absence of competition if
only one source is solicited and the acquisition does not exceed the simplified acquisition threshold; or (ii)
supporting the award decision if other than price-related factors were considered in selecting the supplier.
FAR §§ 13.106-3 (b)(3)(i) and (ii); 48 C.F.R. §§ 13.106-3 (b)(3)(i) and (ii). According to the Government
Accountability Office (GAO), “Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for examination.” GAO,
Standards for Internal Control in the Federal Government, November 1999, GAO/AIMD-00-21.3.1, page
15.

San Francisco Regional Management Training Forum (A-05-09-29174)                                          G-3
was to hire people with disabilities. As a result, SSA wanted to provide the managers
with an illustration or experience of the capabilities of disabled individuals. In addition,
the Region had a prior contract with AXIS Dance Company at another event. Regional
staff said the committee conducted market research for this contract by performing
Internet searches, contacting the Arizona Office of Tourism and requesting assistance
from a former SSA employee and former vocational rehabilitation counselor who lives in
Arizona. After this search, the committee decided it was not able to locate another
viable option to provide this type of diversity training. Again, while this information was
later provided to us in telephone conversations and emails, we were not provided with
any documentation supporting the market research and final determination. The
absence of supporting documentation increases the risk that there could be a lack of
accountability for stewardship of Government resources.

OPEN MARKET ACQUISITIONS (OVER $25,000 TO $100,000)
This process is used for an acquisition of services or supplies exceeding $25,000 but
not exceeding the simplified acquisition threshold (SAT) of $100,000. 10 SSA policy
indicates that this type of acquisition requires the following.

•     Unless the contracting officer determines that publication is not required, the
      contracting officer must publish a notice of the proposed acquisition and the
      subsequent solicitation at the Federal Business Opportunities (FBO) Website, 11
      even if the decision to proceed without competition is justified and approved. 12
•     For other than full and open competition (but not brand name) requirements, a
      statement must be attached to or included on the requisition explaining the rationale
      for limiting consideration of sources to a single source. 13
•     For requirements using a brand name specification, a separate document attached
      to the requisition that justifies the use of brand name specifications. 14
•     The concurrence and approval requirement includes at least one management level
      above the contract officer’s technical representative and a contracting officer. 15


10
     The dollar value of the current SAT is in FAR Part 2.1—Definitions.
11
  FBO has been designed as a single point of entry for Federal buyers to publish and for vendors to find
posted Federal business opportunities across departments and agencies.
12
     AIMS, MRM, § 06.06.06 C.1.
13
     AIMS, MRM, § 06.06.06 C.2.
14
  Id. The justification must include information that explains why the particular brand name, product or
feature is essential to the agency’s requirements; and discusses the market research conducted and
explains that the market research indicates that other companies’ similar products or products lacking the
particular features, do no meet, or cannot be modified to meet, the agency’s needs.
15
     AIMS, MRM, § 06.06.08.


San Francisco Regional Management Training Forum (A-05-09-29174)                                      G-4
CONFERENCE PROCUREMENT

The Region contracted for approximately $135,000 in hotel services ($67,200) and
audiovisual support ($67,800). In both cases, the Region followed the required
procurement polices when soliciting bids from the public and choosing the lowest priced
bid that could also meet all the technical requirements.16

Hotel Services

Regional staff, in conjunction with the regional contracting officer performed market
research 17 for the hotel contract by soliciting quotes from five different hotels in the San
Francisco vicinity using FBO. 18 After the completion of this market research and a final
determination of the needs for the hotel contract, the Region solicited hotel bids from
three metropolitan areas 19 and received seven bids for this contract consisting of one
from San Francisco, one from Los Angeles, and five from Phoenix (see Table G-2 for
some of the contract requirements).

                          Table G-2: Request for Bid Requirements
                                                                Number of
                                   Number of Rooms           Additional Rooms         Lodging/Per Diem
  Metropolitan Location               Required                  Required1                  Rates
 Los Angeles, California                650                         150                        $128/$64
 Phoenix, Arizona                       650                         150                         $96/$59
 San Francisco, California              3002                        150                        $164/$64
Notes: (1) The additional rooms consisted of 125 rooms the night before the conference and 25 rooms
        the third night of the conference.
       (2) Fewer rooms would be required in the San Francisco area because of the number of
       managers living in the San Francisco commuting area.




16
  FAR limitations on the use of sealed bidding indicate, in part, that an award is made to the responsible
bidder whose bid is responsive to the terms of the invitation for bids and is most advantageous to the
government, considering only price and the price-related factors included in the invitation. FAR 14.103-
2(d); 48 C.F.R. § 14.103-2(d).
17
  The FAR requires that Federal agencies conduct market research in a number of circumstances,
including “Before soliciting offers for acquisitions with an estimated value less than the simplified
acquisition threshold when adequate information is not available and the circumstances justify its cost.”
Market research is then conducted to determine if commercial items “…are available to meet the
Government’s needs or could be modified to meet the Government’s needs…The extent of market
research will vary, depending on such factors as urgency, estimated dollar value, complexity, and past
experience.” FAR 10.001(a)(2)(iii) and 10.002(b); 48 C.F.R. §§ 10.001(a)(2)(iii) and 10.002(b).
18
  The first solicitation (SSA-RFQ-09-RMgmtForum) was posted on March 9, 2009. This first solicitation
was considered a pre-solicitation, and was limited to the “downtown San Francisco, California area.”

19
   The earlier pre-solicitation posting was modified on March 27, 2009 to cover the three cities. All three
cities are within the States served by the San Francisco Region. A second modification to the pre-
solicitation on April 13, 2009, removed the audiovisual requirements and noted these services would be
solicited under another request for proposal. The solicitation was posted on April 15, 2009.

San Francisco Regional Management Training Forum (A-05-09-29174)                                         G-5
Regional staff reviewing the bids determined the San Francisco and Los Angeles bids
were not technically acceptable. For instance, the San Francisco hotel bid did not meet
the statement of work specifications in the request for bid since it lacked sufficient
meeting space as well as the required number of guest rooms. In the case of the Los
Angeles hotel bid, the submission did not contain the proper documentation requested
for the bid.

Of the five bids received from the Phoenix metropolitan area, the Arizona Biltmore Hotel
was the lowest bidder at $80,100. 20 The next lowest technically acceptable bid in
Phoenix was $112,825. The bid price included meeting room rentals of $5,000, which
was not part of the Arizona Biltmore Hotel bid. The contract was awarded to the
Arizona Biltmore Hotel on May 14, 2009.

Audiovisual Support

The Agency received nine bids in response to its solicitation for audiovisual equipment
rental and service to host the conference in Phoenix, Arizona. Of the nine bids
received, only two were found to be technically acceptable and were within competitive
range. Those two bidders were requested to submit a final proposal. Based on the final
proposals, Swank Audio Video was determined to be the lowest technically acceptable
bidder at $70,071. 21




20
  After selecting the Biltmore Hotel, regional staff further reduced the costs associated with this contract
by removing a $10,350 afternoon break. As a result, the contract was reduced to $69,750.
21
     This amount was later reduced to approximately $67,800.


San Francisco Regional Management Training Forum (A-05-09-29174)                                          G-6
                                                                                                                      Appendix H

Training Matrix
We developed the training matrix below based on discussions with regional officials in the Chicago and San Francisco
Regions. However, the matrix content is specific to the San Francisco Region’s training process.

   Table H-1: Training Matrix for Various Methods of Delivering Training at the Social Security Administration
                   Purpose /                                                                                                     Impact on
                   Format of                      Size of        Instructor/                        Training-                      SSA's
   Delivery         Delivery                     Audience          Student          Types of         Related    Technology       Computer
   Methods          Method         Audience       (target)       Interaction        Courses          Travel         Used          Network
                                                                        1
 Video         Predominantly      Management   Varies -          Limited       NA                  NA           SSA's          Technology
 Conferences   used for special   and staff    Usually less                                                     network        uses SSA's
               meetings and                    than 15-20.                                                                     network
               not used for                                                                                                    capacity
               training                                                                                                        (bandwidth)
               purposes.                                                                                                       and may
                                                                                                                               slow the
                                                                                                                               system.
 Conferences   Used for           Management   Varies - For      Open and      Predominantly       Yes          Audiovisual    None
                                                                        2
               breakout           and staff    staff training,   limited       used for front-                  support from
               sessions and                    usually 100-                    line training and                contract
               small group                     150                             less often for                   vendors if
               work/discussion.                individuals at                  management to                    using other
                                               a time attend                   meet face-to-                    than SSA
                                               the front-line                  face for training                space;
                                               training,                       and networking                   otherwise
                                               which occurs                    purposes.                        use SSA's
                                               4-6 times a                                                      staff and
                                               year.                                                            audiovisual
                                                                                                                equipment/
                                                                                                                accessories.




San Francisco Regional Management Training Forum (A-05-09-29174)                                                                        H-1
                    Purpose /                                                                                                     Impact on SSA's
                    Format of                             Size of      Instructor                        Training-                   Computer
    Delivery         Delivery                           Audience        /Student         Types of         Related    Technology      Network
    Methods          Method            Audience           (target)    Interaction        Courses          Travel        Used
                                                                              3                              4
 Interactive    Used for             Mainly used      Varies -        Limited       Majority related     Yes         SSA's        Technology
 Video          majority of          for staff, but   Entry level                   to national field                Satellite    does not
 Teletraining   entry-level          occasionally     training can                  operations                       Dish         interfere with
 (IVT)          training for field   used by          be from 2-10                  training. Training                            SSA's network.
                operations and       management       people at                     that is more
                on-going             for specific     each                          specific to a
                transmittal          broadcasts.      downlink                      unique caseload
                training for staff                    site, while                   of a Region is
                in the                                transmittal                   supplemented by
                immediate                             training can                  the Region (for
                claims taking                         be for the                    example,
                units in the                          entire office                 legislation and
                Program                               or unit.                      policy that is
                Service Center                                                      specific to
                (PSC). IVT                                                          Hawaii).
                training is
                available to
                most staff in
                other sections
                of the PSC,
                teleservice
                center (TSC),
                and disability
                determination
                services (DDS).
 Video on       Used for self-       All Staff        One person      None          Refresher            No          SSA's        Technology
 Demand         study - videos                                                      training and self-               network      uses SSA's
                of IVT                                                              development.                                  network capacity
                sessions. It is                                                     Also can be used                              (bandwidth);
                not used for                                                        for core training                             however, the
                long-term,                                                          with                                          number of
                entry-level                                                         presentations                                 expected users
                training and is                                                     from classes with                             at any given time
                not a technical                                                     different                                     should not slow
                training vehicle.                                                   speakers.                                     the system.



San Francisco Regional Management Training Forum (A-05-09-29174)                                                                               H-2
                Purpose /                                                                                             Impact on
                Format of                     Size of     Instructor /                    Training-                     SSA's
   Delivery       Delivery                   Audience       Student           Types of     Related     Technology     Computer
  Methods         Method        Audience      (target)    Interaction         Courses      Travel         Used         Network
 SSA Learn    Self-study      All Staff     One person    None           Personal        No           Internet      Technology
                                                                         development                                uses SSA's
                                                                         and refresher                              network
                                                                         training                                   capacity
                                                                                                                    (bandwidth) if
                                                                                                                    the course is
                                                                                                                    performed on
                                                                                                                    SSA's
                                                                                                                    systems;
                                                                                                                    however, the
                                                                                                                    number of
                                                                                                                    expected
                                                                                                                    users at any
                                                                                                                    given time
                                                                                                                    should not
                                                                                                                    slow the
                                                                                                                    system.
 E-Learning   Self-study      All Staff     One person    None to        Personal        No           Internet      Technology
                                                                 5
                                                          Limited        development                                uses SSA's
                                                                         and refresher                              network
                                                                         training                                   capacity
                                                                                                                    (bandwidth) if
                                                                                                                    the course is
                                                                                                                    performed on
                                                                                                                    SSA's
                                                                                                                    systems;
                                                                                                                    however, the
                                                                                                                    number of
                                                                                                                    expected
                                                                                                                    users at any
                                                                                                                    given time
                                                                                                                    should not
                                                                                                                    slow the
                                                                                                                    system.




San Francisco Regional Management Training Forum (A-05-09-29174)                                                              H-3
                  Purpose /                                                                                                      Impact on
                  Format of                         Size of      Instructor /                         Training-                    SSA's
   Delivery        Delivery                        Audience        Student           Types of          Related    Technology     Computer
   Methods          Method          Audience        (target)     Interaction         Courses           Travel        Used         Network
 Traditional    Lecture           All Staff       Varies         Open           All entry-level      Varies       None          None
 (on-site):                                                                     training for DDS,
 Face-to-                                                                       PSC, and
 Face                                                                           processing
                                                                                center
                                                                                operations
                                                                                (benefit
                                                                                authorizer and
                                                                                claims
                                                                                authorizer);
                                                                                majority of TSC
                                                                                training; and
                                                                                some field office
                                                                                entry-level
                                                                                training (service
                                                                                representative
                                                                                and claims
                                                                                representative).
                                                                                Also,
                                                                                management
                                                                                training classes
                                                                                where
                                                                                interaction and/
                                                                                or multiple
                                                                                instructors are
                                                                                required.
 Private          Lecture             All Staff       Varies          Open      Management        Varies          None           None
 Vendors                                                                        and staff training
 (off-site):
 Face-to-
 Face
Notes: (1) The participants may not be inclined to discuss actual management issues/problems since participants do not always know who is
         attending at the various sites and how the discussion will be received.




San Francisco Regional Management Training Forum (A-05-09-29174)                                                                            H-4
      (2) The participants are allowed to discuss different issues with their peers from other offices and participate in activities/simulation training
      (that is, real-life scenarios) in small groups. The participants also attend large group meetings where they may or may not feel
      comfortable sharing ideas.
      (3) The instructor may not be able to respond or receive all the participants’ questions during a live broadcast (primarily due to time).
      Therefore, IVT classes use additional software communication tools to interact with the instructor and other trainees.
      (4) SSA has generally clustered students for IVT training. SSA does not want one individual to attend an IVT session only. As a result,
      SSA incurs travel-related expenses for staff from different offices to participate in the IVT training sessions. For instance, while not a
      typical example for more regions, Region IX may fly managers and staff from Pacific Island locations to ensure they benefit from a live
      broadcast within their regular work hours.
      (5) SSA has contracted in the past with private vendors that supplement the E-Learning courses with an instructor who can answer
      potential questions from course participants.




San Francisco Regional Management Training Forum (A-05-09-29174)                                                                                    H-5
                                                                                        Appendix I

San Francisco Region Conferences
The San Francisco Region hosted 11 conferences for approximately 2,800 attendees from
January 2001 to August 2009. A list of these conferences is provided below.

           Table I-1: San Francisco Regional Conferences since January 2001
                           (January 2001 Through August 2009)
           Conference                  Conference                              Number of        Reported
             Name                       Location                Date           Attendees         Costs
 Regional Management
                                     Phoenix, Arizona         July 2009               674         $675,081
 Training Forum
 San Francisco Region
 Management Association               Tempe, Arizona      November 2008                82            5,500
                       1
 (SFRMA) Annual Meeting
 Southern Area Border                   San Diego,
            2                                                May 2008                  47           54,641
 Conference                              California
                                       Industry Hills,
                          1                               November 2007               118             5,000
 SFRMA Annual Meeting                    California

 San Francisco Hispanic                Las Vegas,                                                     9,393
                             3                              October 2007              336
 Advisory Council Conference             Nevada
                                      San Francisco,
                          1                               November 2006               113             2,500
 SFRMA Annual Meeting                   California
                                       San Diego,
                          1                               November 2005               133             2,500
 SFRMA Annual Meeting                   California
                                        Yosemite,
                          1                               November 2004               120             2,500
 SFRMA Annual Meeting                   California
 San Francisco Hispanic                Las Vegas,
                             3                              October 2003              317             1,978
 Advisory Council Conference             Nevada
                        1
 SFRMA Annual Meeting                 Mesa, Arizona       November 2002               100             3,000
 San Francisco Region                   La Quinta,
                                                             June 2001                728          572,374
 Management Training Forum              California
 Totals                                                                            2,768       $1,334,467
Notes: (1) Figures for the San Francisco Region contain meeting data for SFRMA, which, according to its
bylaws, is a nonprofit association of SSA managers established to ensure “…constructive cooperation with
the commissioner of Social Security and all responsible officials in the furtherance of social security
programs, encouraging the establishment of policies that best serve the public interest in the
accomplishment of the mission of our agency, fostering professional growth of management personnel,
assuring meaningful and realistic consultation between agency heads and representatives of management
organizations.” Regional management stated the Region supports some of the speakers/trainers and
generally provides 4 hours of administrative leave for managers traveling to the conference.

(2) Southern Area Border Conferences are on-going meetings to address issues, such as alien disability
payments and taxation, particularly affecting the U.S.-Mexican Border States. These conferences were held
jointly with the Dallas Region. San Francisco regional management considers these meetings to be
"workshops" in nature, designed to address SSA matters of special importance to the Border States.
Attendees at these meetings also included executives from Headquarters.

(3) Regional management also reported that the Hispanic Advisory Council Conference attendees included
people from outside the Region as well as executives from Central Office. Participants paid their own travel
and hotel expenses.


San Francisco Regional Management Training Forum (A-05-09-29174)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
